PROOF OF SERVICE

., do swear or declare that on
Yueyou Peng
I,
this date, Aug. 31
, 20 21 , as required by Supreme Court Rule
29 I have served the enclosed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Beniamin Griffin
19200 Von Karman Ave.. Suite 900, Irvine. CA 92612

I declare under penalty of perjury that the foregoing is true and
correct.
Executed on

,202L

>Jm
(Signature)

